           ,.




Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL




   FUNCTIONAL IMPAIRMENTS
       OF AFDC CLIENTS




           .. SERVICe,..



                           Richard P. Kusserow
                           INSPECTOR GENERA
      1-

                cl3a           OEI-0-   90-0
              EXECUTIVE SUMMAR Y
PUROSE
The purpose of this inspection is to determine whether and how States with Job
Opportunty and Basic Skis (JOBS) experience are systematically identifng and
dealig with the functional impairments of Aid to Familes with Dependent Children
(AFC) clients.
BACKGROUN
The Aid to Fames with Dependent Children when enacted in 1935 , had as its initial
intent to allow widowed mothers to stay at home with their children. Its phiosophy
shifted with the Family Support Act of 1988 into assisting needy chidren and parents
in movig from welfare dependency to self-sufficiency.

To promote the philosophy of self-suffciency, the Famiy Support Act requires that
States develop a JOBS program, an education, traiing and employment program
intended to help AFDC clients avoid long-term dependence.

A 1988 study for the Assistant Secretary for Planning and Evaluation (ASPE) on
functional impairents in the AFC population determined that nearly one in four
women on AFC under the age of 45 reported themselves as functionally impaired in
contrast to one in eleven non-AFDC women.

A study completed recently for ASPE by Child Trends , Inc. evaluated AFDC mothers
as potential employees. It found that most of these women have a liited education
score below average on verbal and math skills tests , and have had little work
experience , are long- term welfare recipients and report health problems , alcohol abuse
and depression.

METIODOLOY
This inspection was conducted in three phases: 1) telephone intervews with managers
of the State welfare offces and with JOBS program directors in the 25 States which
have had a JOBS program in place for at least one year; 2) site visits and telephone
discussions with program managers and clients in eight local programs which have
especially effective practices in helping the functionally impaired; and 3) an analysis
and comparison of the States ' AFDC and JOBS assessment forms.
The term fuctional impairment             is defied for the purpose of this inspection as any
chronic physical or mental barer which may prevent an individual from leavig
welfare and becomig self-sufcient. These impairments affect an individual's abilty
to succeed in the JOBS program and become employed. Respondents were given this
broad defition of a fuctional impairent prior to the intervews.
FIINGS
Resnd Ide               A     Varity Of   Impair Amng AFDC Cli; Learning
Diabil An         Substnce Abuse Are           Mos Freq Menne
                                              Th




Respondents identif a varety    of impairments among AFDC clients such as learning
disabilties; substance abuse; low back pai; emotional , hearig, visual and dental
problems; domestic violence and obesity. These impairents often contribute to low
self esteem, frequently mentioned by respondents as a major problem , and serve as
barrers to self-suffciency.


Ide
Jobs Program Partpatin InceaSes Chances Of Havg Funtinal                        Impair
A comparson of JOBS and AFC eligibilty assessment forms shows that the JOBS
forms ask more questions which might reveal functional impairments. The JOBS
program directors are more confdent than AFC program directors that their initial
assessment process does in some way identify functional impairents. Whle AFDC
respondents think that impairments might be identifed during the AFDC eligibilty
assessment , most stress that this assessment basically consists of a fiancial evaluation.
Participation in various JOBS activities provides fuher opportunities for identifyng
the functionally impaired.

Proble Ex In Dealig Wll                Ide Funnal Impairts
Whle referral does occur, it is not formal and there is little follow-up. Both AFDC
and JOBS directors state that afer          an impairment   is identified the client is referred to
appropriate servces ,     which in most cases consists    solely of   givig the client a
telephone number or making a phone call.

Additional obstacles which prevent clients from getting the servces they need include
lack of avaiable publicly fuded servces , lack of transportation and lack of
coordination among the various assistance programs.

State Do Not Coll Agegate              Data On     Funnal Impair           In   Th   AFDC
Popultin
States do not collect systematic data on these impairments. When an impairment is
identifed , it is generally recorded , on the client' s individual case record , but it is not
usually collected on an aggegate level in anyone central place on either a local or
State level.

Some Loal   Prams Are Escill         Help     To   Th   Funnall Impaired
Special programs at the local level (all contracted through JOBS) were identifed
which employ a variety of ways to facilitate self-suffciency in the functionally impaired.
All are structured to accommodate clients with functional impairments and to assist
them in achieving self-suffciency.

RECOMMATIONS
       States should develop mechanisms to assure appropriate identifcation, referral
       and follow-up of clients with functional impairments. These mechanisms could
       include:

              in- depth assessments with questions and features specifcally targeted 

              functional impairments

              training AFC and JOBS workers to identify functional impairments

              and

              improved links with local programs which serve the functionally
              impaied, particularly with regard to follow-up.
       The Admiistration for Chidren and Familes should assist States and local
       governments by publicizing effective practices for identifyg, referrng and
       servng the functionally impaired.

       The Administration for Children and Families should conduct research on the
       extent and nature of impairents and interventions. As suggested in ASPE'
       comments to the draft report , this research could include coordination with
       research units whose primary focus is disability.

COMM
Comments to the draf report were received from the Administration for Children and
Famies (ACF) and the Assistant Secretary for Planning and Evaluation (ASPE) and
appear in Appendix A. We have considered these comments and made changes
where appropriate.

In response to the first recommendation , the ACF expresses interest in workig with
States to address the problem. While they cite fiscal constraints on States as a
possible liting factor, they nevertheless wi encourage States to look for
impairments to a participant' s successful transition to self-suffciency. They
acknowledge that existing JOBS regulations wi be helpful in this regard.
Both ACF and ASPE expressed concern that the defiition          for functional   impairment
used in this report is too broad and unclear.   In   response to these concerns , we
amended the report to clari   the meanng of functional impairment. Prior to our
study the nature and extent of this problem was largely unknown. Our goal was to
make a preliary identifcation of the various tyes of impairents in order to assist
researchers and program administrators in comig to grps with functional impairents
of the AFC population. Therefore , we thought it important not to restrict our
defiition to any specifc conditions. Clearly, much more research is needed to define
the problem and develop remedies.
                                   ................................................
                                                                 . . . . . . . . . ... .. .. .. . ..
              . .. .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .. .. .. .. .. .




                           TABLE OF CONTENTS

EXCU SUMY
INODUCfON €
FIINGS                                                                                                                                     . . . . . . . . . . . . . . . . . . . 4€
    A Variety of Impairents                                                                                                                                                                    . . . . . 4€
    JOBS Identifcation of Functional Impairments . . . . . . . . . . . . . . . . . . . . . . . . 4€

    Problems in Dealig with Functional Impaients€ . . . . . . . . . . . . . . . . . . . . . . 6€

    Data Collection€                                                                                                                                            . . . . . . . . . . . . . 7€
    Helpful Local Programs€                                                                                                                                                              . . . . . . 8€

RECOMMATIONS€

COMM €
.APENDIX A . . . . . . €                                                                                                                                               . . . . . . . . . A-
                                                        ..




                          INTRODUCTION€
PUROSE€
The purpose of this inspection is to determine whether and how States with Job€
Opportunity and Basic Skils (JOBS) experience are systematically identifyng and€
dealig with the functional impairents of Aid to Famies with Dependent Children
(AFDC) clients.

BACKGROUN€
AFDC€

The Aid to Familes with Dependent Chidren has as its purpose , as indicated in Title
IV of the Social Security Act (Part A, Section 401) "        encouraging the care of
dependent chidren in their own homes.. by enabling each State to furnish fiancial
assistance and rehabiltation and other servces to needy dependent children and the
parents or relatives with whom they are living. II The AFDC program is admistered
by States , but funded jointly by the Federal and State governments.€

A family unit becomes eligible for AFDC when a dependent child, under 18 years of
age , is deprived of parental support for various reasons: a parent's death , a parent'
mental or physical incapacity, a parent' s absence from the home and , in 29 States , the
parent s loss of employment. Although eligibilty may be based on any of the above
factors , the father s absence from the home is the priary and major reason for
program eligibilty. Therefore , even if a client may have a functional impairent, that
impairment may not be noticed because eligibilty is based on the father s absence
from the home.€

When enacted in 1935 , the program s   intial intent   was to allow widowed mothers to
stay at home with their children, its philosophy shifted with the Family Support Act of
1988. It now ais to assist needy children and parents in moving from welfare
dependency to self-suffciency.

JOBS€

To promote the phiosophy of self-suffciency, the Family Support Act requires that
States develop a JOBS program, an education , training and employment program
intended to help AFC clients avoid long- term dependence. States must enroll seven
percent of the eligible population by 1991 , rising to 20 percent by 1995. Clients are
assessed to determine their trainig needs and to develop an employabilty plan.
Whe all States have now implemented JOBS , some programs have been in operation
longer than others.
The exposure of the AFDC population to JOBS , however, remais lited. As
indicated above , JOBS is only reaching a small portion of AFC clients. Nineteen
States did not begin their JOBS program until the last possible date , October 1 , 1990
and not all have implemented it Statewide. Preliinary data for the second quarter of
Fiscal Year 1991 indicates that out of approximately 4. 2 mion adult AFC
recipients , 510 000 (12 percent) are in JOBS activities at anyone point in time. This
number is expected to increase as the program expands. State budget constraints are
causing States to use only a   par of available Federal matching funds.
Prr Stu€
A 1988 study for the Assistant Secretary for Plang and Evaluation (ASPE) on
fuctional impaients in the AFC population determined that nearly one in four
women on AFC under the age of 45 reported themselves as functionally impaired.
In contrast , only one in eleven non-AFC women reported having a functional
impairment. The data was derived from self-reported information on the client'
abilty to function.


A study completed recently for ASPE by Child Trends , Inc. evaluated AFDC mothers€
as potential employees. It found that most of these women have a limited education€
score below average on verbal and math skis tests , and have had litte work€
experience. Also, one-half of the mothers are long- term welfare recipients. Some also€
report health problems , alcohol abuse and depression. Whe this study targeted€
barrers to employment , it did not specifcally look at functional impairents.€

Other than these two studies , limited literature exists regarding functional impairments€
in AFC. Also , little is known about what , if any, State procedures are used to€
identif fuctional impairents of AFDC clients.€

METIODOLOY€
This inspection was conducted in three phases. Intially, the study team conducted€
telephone intervews with managers of the State welfare offces (AFC respondents)€
and with JOBS program directors (JOBS respondents) in the 25 States which have had€
a JOBS program in place for at least one year. A total of 49 telephone intervews€
were completed (one welfare manager could not be contacted).€

Durig these intervews, the team asked JOBS program directors questions about€
clients in their caseloads who have functional impairments, how they assess these€
clients, whether and how they identified the functional impairents of these clients€
and , once identifed , how the referral process works. Similarly, the team asked State€
welfare managers to indicate whether and how they identifed functionally impaired€
clients other than through JOBS and , once identifed , how the clients are referred.€
Additionally, both tyes of respondents also provided their perceptions of the€
characteristics and problems of this population.€
The term fuctional impairment is defied for the purpose of this inspection as any
chronic physical or mental barrer which may prevent an individual from leaving
welfare and becoming self-suffcient. These impairments affect an individual's abilty
to succeed in the JOBS program and become employed. Respondents were given this
broad defiition of a functional impairent prior to the intervews.
In the second phase , the study team collected and reviewed JOBS assessment forms
from 24 of the 25 States and AFC assessment forms from 14 of the 17 States in
which the welfare manager thought the eligibilty assessment could identif functional
impairents. The team utiled a worksheet listing features and questions on these
forms , such as whether the individual had a barrer to employment , which were likely
to identify functional impairents. It then checked each assessment form against this
worksheet to determine how many of the features and questions it possessed.

Lastly, the team chose four special programs at the local level for site visits and four
for telephone intervews with the program managers. These eight were chosen from
24 programs cited by State respondents as having some effective practices in helping
the functionaly impaired. The four programs intervewed by phone were in
Pennsylvania , Kansas , Nebraska and Iowa. The four visited were in New Jersey,
Michigan and New Hampshire. They were chosen because they might exemplify some
best practices for identifyg and/or servg AFC clients with functional impairments
and because they appeared to demonstrate a variety of different program practices
and phiosophies. The team held face- to-face discussions at each site with case
managers or program staff to gain greater insight into the operations of the programs.
Seventeen program clients , selected either by the program manager or the visiting
team , provided their views of the program to the team.

Since lited literature and data exist on functional impairents in the AFDC
population, this study was exploratory in nature. It surveyed program offcials to
determine basically what is known about functional impairments and to identify the
issues pertaing to this problem.
                                  FINDINGS

Respond Ide A            Var Of Impir            Amng AFDC Clits; Learning
Diabil An        Substae Abuse     Are   Th   Most Freq Menne

All AFC and JOBS program directors agree that learnng disabilties , substance
abuse , physical problems such as low back pain , and emotional problems , such as
depression, exist in the AFC population. These emotional problems are not routine
but are severe enough to interfere with functionig. Other impairents include:
hearing and visual problems, dental problems , domestic violence and obesity.
Respondents based their opinions priariy       on   their own experience and observations
in the field , and to a lesser extent on formal testing.

These impairents   often contribute to low self esteem, frequently mentioned by
respondents as a major problem , and serve as barriers to self-suffciency. Many clients
have multiple impairents and come from dysfunctional famies.

Many AFC clients do not have a high school diploma or equivalent, which many
respondents feel is due in large par to the widespread existence of learng
disabilties. Many clients were not successful in school and simply dropped out , never
being identifed as learng disabled and , therefore , never received special education.
Most were not even aware of their problem. One AFDC respondent reflects the
views of several when he says Fif-one percent of AFC clients do not have a high
school degree and probably most of them have a learning disabilty. " Another agrees
that "there is a sense that a lot of literacy clients are learing disabled. " Respondents
described a learnng disabilty not as a major neurological condition , but as an
impairment that makes learng difcult , such as dyslexia.

The AFC and JOBS directors also consider substance abuse to be prevalent in the
AFDC population. They believe this impairment can be easily masked and only
discovered if the client happens to be under the infuence of the substance whie in
contact with program workers.

                Partin Inceases Chnces Of Havig Funnal Impairts
Ide
JOBS Pram


       Initial JOBS assessments are more likely to identify impairments than AFDC
       eligibility assessments.

A comparison of JOBS and AFC eligibilty assessment forms shows that the JOBS
forms ask more questions which might reveal functional impairents. Al the JOBS
forms specifcally ask about barrers to employabilty, as opposed to only 36 percent of
AFDC eligibilty forms. Fift-five percent of JOBS forms , in contrast to 14 percent of
AFC forms , focus on substance abuse problems. Also , 45 percent of JOBS forms
target emotional health problems , while very few (13 percent) AFDC forms do.
Finally, JOBS forms are twce as likely as AFDC forms to have a worker observation€
section that instructs workers to record observations about client functioning and
behavior.

The review of JOBS assessment forms also shows that approximately one- third call for
testing which might reveal functional impairments. Th-six             percent have skis
testing and reading/teracy testing, and 27 percent test math skils. In those same 25
States , no testing of any kid is conducted as part of the AFC eligibilty assessment.




              JOBS ASSESSMENT FORMS TARGET FUNCTIONAL IMPAIRMENTS
                                 MORE THA AFDC FORMS€
             100€
                                                   Legend
                                                 % OF   AF FOMS   WI THIS FETURE
                                            II %
                                                   OF JO   FOMS   WI THIS FE11RE




                    QUESAI€                                  TENG€
                     BAER 1\
                     EMPL      SUBSAN€
                                               OBATI




The JOBS program directors are more confident than AFC directors that their initial
assessment process does in some way identify functional impairments. Whe AFDC
respondents think that impairments might be identifed durig the AFC eligibility€
assessment , most stress that this assessment basically consists of a financial evaluation€
lited mostly to questions about finances and family situation. On the other hand€
most JOBS respondents report that their assessment has more detailed questions€
about the clients ' background and barrers to employment. One AFDC respondent
suggests that " If more people could at least get through the JOBS assessment , that
would be the most effcient, cost-cutting way to identify impaients because the
   , "                                                  , "                    , "€




assessors for JOBS are case managers. JOBS assessments should become a
requirement."

Both AFDC and JOBS respondents generally agree that if an impairment is identifed
in an intial assessment , it usually occurs as a result of questions asked during the
intervews , worker observation, and testing.

The JOBS assessors tend , on the whole , to be more qualified educationally and
experientially than their AFC counterparts. In all but one of the 25 States , at least
75 percent of JOBS assessors have college degrees , whereas in only four of those
States can the same be said for AFDC assessors. In 64 percent of the States, more
than half the JOBS assessors have prior case management experience; in none of the
States do more than hal of the AFC workers have prior case management
experience. Also , the AFC directors report that because their staff have very large
case loads , they may not have suffcient time to note subtle client impairments. One
respondent reflects a prevailng view when she says You can t identif and do volume
servce at the same time.


         Partcipation in JOBS program activities provides further opportnities to identify
         the functionally impaired.

Six-eight percent of JOBS program directors report that participation in later JOBS
activities , such as traing or workshops , is likely to reveal a client s functional
impairments because it demonstrates the client s abilty to function in a structured
setting. One JOBS respondent reflects the view of many when he states It is very
hard to identif subtle impairments if the person doesn t disclose it. They may show
up down the road but the initial assessment isn t enough time to do it. " Another states
that When the client begins participation in an actual component , they have to come
every day to a program and you see problems with attendance , behavior and
consistency in terms of performance.

In contrast to the JOBS experience , only several AFDC respondents report that
impairents may be picked up durig additional contact with the client , such as
ongoing case management; they stress that this is often informal and by chance.

Prble Ex In Dealig Wih            Ide Funtinal Impain
         While refe"als do occur, they are often informal with little follow-up.

The AFDC and JOBS program directors report that after an impairment is identified€
the client is referred to servces such as substance abuse treatment , medical and
mental health servces, social servces and vocational rehabiltation. In most cases
referral consists solely of givig the client a telephone number or makg a phone call.
Limited follow-up also hinders the referral process. As one AFDC respondent states
Follow-up is important. Otherwse the client wi         be back on the rolls. "     Many
respondents blame large case loads and insuffcient staffng and resources for this lack
of follow-up.€

Both AFC and JOBS respondents mention particularly that if clients have chronic
disabilties that would make them eligible for SSI , they would definitely be referred.
However, many of these disabilties are not severe enough for them to qualify for SSI.
One AFC respondent reports that her State " is in serious budget trouble , so we have
to look very hard for people who could be put on SSI so the Feds , not the State , pay
for them.

A number of additional obstacles prevent clients from getting the servces they need.
Six-four percent of respondents cite a lack of available publicly funded servces, as
exemplied by the long waiting lists at many substance abuse treatment centers. Fift-
two percent mention lack of transportation. Lack of coordination among the various
assistance programs is also mentioned.

       The functionally impaired face other obstacles to self-suffciency.

A majority of AFDC and JOBS program directors believe the functionally impaired
face other barrers to self-suffciency. Almost all mention that these clients have a
diffcult time fiding and retaining work that pays enough to get off the AFDC rolls.
Over hal the respondents state that there are not enough programs , servces or
training opportunities specifcally suited to the functionally impaired. Some other
obstacles include transportation problems and housing difficulties.

Full- time JOBS participation may be difcult for the functionally impaied. In order
for States to meet the requirements for JOBS Federal funding, the JOBS participation
rate in each State must average 20 hours per week for each participant. However
several respondents mention that this rate may be diffcult to reach due to this
population s impairents. Because a functionally impaired client might not initially be
able to tolerate 20 hours of classroom instruction, other recipients ' participation rates
wi have to be proportionately higher in order for a State to reach the required
participation rate.

State Do Not CoHect   Agegate Data On Funtinal         Impair       In   Th   AFDC
Popultin
Alost all JOBS and AFC respondents state that when a functional impairment is
identified , it is generally recorded , usually on the client's individual case record.
Employabilty plans , referral forms , test results and assessment forms were mentioned
as other places where impairments might be indicated. However, while such
inormation may be maintained in an individual case record , it is not usually collected
on an aggegate level in anyone central place on either a local or State level. Several
respondents point out the fact that the collection of such data is not a program
requirement.
Whe awareness of the problem exists, it is not usually quantified. When JOBS and
AFDC respondents were asked to specif the number of individuals identified as
having fuctional   impaients over    the past year ,    most could not give an exact figure.
Those who did offered only estimates, rangig widely from two to eighty percent.

Some Loal   Pram Are       Es Hel             To   Th    Funnall Impaired
      Special programs at the local level employ a variety of ways to facilitate self­
      suffciency.

Both JOBS and AFC respondents mention several local programs with effective
practices for helping the functionally impaired. Of these , the study team chose eight
for onsite visits or telephone intervews (a forthcoming case      study report   wi profie
the eight programs in greater detail). All eight accommodate clients with fuctional
impaients and to assist them in achieving self-suffciency. These programs include:
general equivalency degree (GED) traing classes with special activities for the
learng impaired; intensive, in- depth client assessments; programs specifically for
long-term welfare recipients , the majority of whom are functionally impaired; and
intensive , multi- focus group workshops. These programs were later found to be
contracted through JOBS.

The managers and instructors in all eight programs, say that at least half their clients
have a functional impairment , with many havig multiple impairments. With the
opportnity to be thoroughly evaluated and with intensive participation in program
activities , clients are reportedly more liely to have impairments identifed , thus
allowig appropriate treatment and referrals to be made.
                                                            , "€




       These local programs share several characteritics which contrbute to their
       apparent success.€

The eight local programs exhbit common qualities and practices which            maxe their€
effectiveness , as listed below.




                                       HAVE STRTEGIES
                RECONIZE THE           TO MINIMIZE IMPACT
               SIGNIACANCE AND          OF FUNCTIONA
                PREVALNCE OF             IMPAIRMENTS           STRESS SELF- ESTEEM
            FUNCTIONAL IMP RMENTS                              AND SKILL BUILDING




                                    lH EI LO     PROGRAS I




                        EMPHASIZE                                    HAVE A€
                          CUENT             UTIUZE                 DEDICATED€
                        FOLLOW-            INTENSIV                  STAFF€
                                            CASE€
                                          MANAGEMENT€




Additionally, most program managers and instructors attribute their success to dealing
with all the needs of the individual - emotional , physical , fiancial and personal. They
also stress the importance of teachig clients to rely upon themselves , despite any
impairments they may have; as one respondent states We teach them to advocate for
themselves.

       Clients of the visited programs offer strong support.€

Al client respondents from the four programs visited give these programs positive
ratings. Clients feel that they benefit from the individual attention they receive and
are confdent their participation will help them achieve self-sufciency. They mention
that they are being given practical skills for enterig the workplace and , just as
importantly, are building their self-esteem. With career discovery programs , they are
able to explore the diferent employment options available to them.
                   , "                     , "€




Particularly in the GED classes , an effort is made to tailor education and training to
the needs of clients with impairments. Many of these clients were not successful in
regular school settings because their impairments , such as learning disabilties , were
not recogned and therefore not accommodated. One client currently studyig for
her GED asserts Ths is a second opportunity for me. I'm not going to let it go.

       Some program graduates are no longer dependent on welfare.

Except for one , all of the eight programs have clients who have already graduated.
Some are currently attending college and others have steady employment. Several of
the programs will only place clients with jobs that pay enough to keep them off of
welfare; in most cases , these jobs pay above the minimum wage. In one program, a
former client is now an instructor in that program; in another , a former client attained
her Master s degree in Social Work and is now a case manager.

The success of the individual parent also has wider implications for her/his chidren.
Several program staff mention that when a parent is no longer dependent on welfare
her/his children are also more likely to avoid such dependency when they become
adults. One program manager states Some kids thik             being on     AFDC is a way of
life ; several others mention that successful     participation in their   programs is one way
to "break   the cycle "   of future welfare generations.
                   RECOMMENDA TIONS€
      States should develop mechanisms to assure appropriate identification , referral
      and follow-up of clients with functional impairents. These mechanisms could
      include:

             in- depth assessments with questions and features specifcally targeted to€
             functional impairents€
             trainng AFC and JOBS workers to identif functional impairents€
             and€
             improved lin with local programs which serve the functionally€
             impaired , particularly with regard to follow-up.€

      The Administration for Children and Familes should assist States and local
      governents by publicizig effective practices for identifg, referring and
      servg the    fuctionaly impaired.€


      The Administration for Children and Famies should conduct research on the
      extent and nature of impairments and interventions. As suggested in ASPE'
      comments to the draft report , this research could include coordination with
      research units whose primary focus is disabilty.

COMM€
Comments to the draft report were received from the Admistration for Children and
Familes (ACF) and the Assistant Secretar for Plannig and Evaluation (ASPE) and
appear in Appendix A. We have considered these comments and made changes
where appropriate.

In response to the fist recommendation, the ACF expresses interest in working with
States to address the problem. While they cite fiscal constraints on States as a
possible limiting factor, they nevertheless wi encourage States to look for
impairents to a participant s successful transition to self-suffciency. They
acknowledge that existing JOBS regulations wil be helpful in this regard.

Both ACF and ASPE expressed concern that the definition for functional impairent
used in this report is too broad and unclear. In response to these concerns , we
amended the report to clari the meaning of functional impairment. Prior to our
study the nature and extent of this problem was largely unknown. Our goal was to
make a preliinary identifcation of the various tyes of impairments in order to assist
researchers and program administrators in coming to grps with functional impairments
of the AFC population. Therefore , we thought it important not to restrict our
defition to any specifc conditions. Clearly, much more research is needed to defie
the problem and develop remedies.
   APPENDIX A
COMMENT TO mE   DRA REPORT
                                                                                     . .. ~~~               -=
FEB-26-92 WED 14: 59                                                                                         r-. -=



           DEPARTMENTIiAn\'t&.                   HUMAN SERVICES
                  CiFFICE OF i€ SPE
                                                                              ADMINISTRATION FOR CHILDREN AN €
                  1992 FEB I 3        i 9: q a
                                                                              Washington, D.C.    2047
                                                                                                           W.
                                                                              Office of the Assistant Secretary, Suite 600
                                                                              370 L' Enfant Promenade, S.



                                                                                              PDIG
   DATE:         Febt"uary 13, 1992                                                           DIG-AS




   TO:           Richard P. Kusserow pcG-
   FROM:
                 Inspector General




                 Jo Ane
                 Assistant Secretary
                                     B. Barnart
                                         . ies
                                                                                               OGC/IG .

                                                                                               EX SEC

                                                                                               DATE SENT

                      for Children and Fam

   SUBJCT: Draft for Il Functi01\                                      :t pairment
   Thank you for the opportunity    c01Dent on your study of the 't
                                                      believe that
   functional impairments affecting AFDC clients. We
   it is a well written report.
   However, the report uses a definition for functional      impairment
                                                     (A) ny physical  or
   that we believe is broad and amiguous:      "
   mental barrier which may prevent an individual from leaving
                                              If the discussion were
   welfare and becominq               self-sufficient.
                                                                     the
   more focused, it would better serve to address the needs of
   participants and ACF. Distinctions should e.,  be drawn between those
                                                      the need for eye-€
   conditions which.  can be readily treated,  i.
   qlasses , dental treatments, and other physical all ents and those
   emotional and self-esteem problems which might only be alleviated
                                                                programs.
    over    e long term through counseling and job readiness
                                                      from physical and
   These barriers should in turn be distinguished
   mental conditions which would cause exemptions   hefor  illness or
    incapacity at 4S CFR 250. 30(b) (2) and
                                                       report  should         (3).


    also acknowledqe that increasing AFDC caseloads affects a State
    agency' s ability to serve the functionally impaired.
    The repcrt is correct that regulations allow for the combining€
    and averaging of t."1e hours of those individuals scheduled to€
    participate in JOBS activities. However, the last sentence of
    the 4th paragraph on page 7 sti l implies that a particular
    participant will have to be in classroom   instruction for a
                                            inimum participatio rate
    minimum period of time.                              There is no


    for individual participants. time appropriateFuctionally
                                                 impaired participants
    could attend for the                 lengt of     to them, as long€
    as the participation of other recipients allowed the state to
    achieve the participation standard.
                                                                                       ..:;,..,:-:'.

                                                                                    ,. ;,
                '" .




r. .€


   Page 2 - Richard                    P. IUserow
                                            OlG, in these reports and

   Finally, we would like to encQurage people
                                        the   first" language

   in any subsequent reports, to use "              means that  the

   wherever appropriate. "People first."
   person rather than the disability comes
                                          languac;e       €
                                                             firt.
                                                     So, ter example,

   not "mentally re arded boy" but "boy with mental retardation"

                                                      , but " uses a

   or, not "crippled" or " confined to a wheel chair
   Wheel chair"            , etc.
                       In c:eneral the focus should be on the
   individual, not the particular limtation.

                                   Commen-ts on Recommenda
                                                                 iiit€
    RECOMMND1\T!ON NO.

                                                 no. 1 is practical in

           We do not believe that recommendation
           all States given the pressures associated with increased

           caseloads and declinin9 fiscal                resources.
                                                      However, whenever

                                                  c look for these

           appropriate, we will encourage States 


           impairments to a participant's successful transition to

           self-sufficiency .
                                                                                                   fer€
           The JOBS final regulations specify the requirement
           participant assessment in the JOBS
                                                             prcqr.
                                                           'rhe stat.e IV-A
                                            assessment. of each
           aqency must conduct an initial          (1) educational, child
           participant's employability based en needs:  (2) the and prio
           care and other supportive services
           participant' s proficiencies , skillS  deficiencies,
           work experience: and (3) a review of the family
           circumstances, which may include the needs of any child of

            the participant.
            This assessment would serve to report.
                                            identifyThe
                                                     many of the

                                                        regulations give

            conditions referred to in the
            wide latitude to the states to choose methods to assess

            participants and recogni%B that methods will vary based on

            caseload size, program resources,                     ies€
                                               and program philosophi

                                          to qive state IV-A aqen
            We believe Congress intended
            broad flexibility in developing assessment strateqi



        pCOMMENDATION NO 2


              The OFA Division of JOBS program already has a "best

              practices " responsibility which encompasses the  qathering the

                                                             , including   of

              infornation on the total recipient populati

              functionally impaired. UnfortunatelY,   without more
                                              determine' which
                                                                     rigorouS
                                                               practices  are
                                                                          ith€
              evaluation, it is difficult to                          individuals

              most effective in reducing dependency among 

               functional impairments.

 ..




paqe 3 - Richard P.. Kusserow
                                             bariers or
      We aqree that when participants suffer
      1:p.     aiJ:ent
                  which are wi1:in the capacity of the worker to
      observe, every effort should be )lde to seek the resources€
      to secure professional evaluation and t:e services to€
      overcome these obstacles. However,  this function must be€
                                      JOBS worker s major cnqoing€
      performed in the context of the
      responsibiliti
      Coordination with other service providers is critical to the
      success of JOBS.  We  concu that workers should be prepared
                                                             are
      to take full advantage of the network of servicesassistance
      available.  However, it is difficult to provid
      where appropriate non-reimurable    services are in short be
      supply.. If states must. pay for the services, there will
                                                  fuding and the
      considerations regarding the allocation of
      potential efficacy of the treat1ent to achieve meaningful
      participation in JOBS..

8ECOMHNDATION NO.. 3

       ACF will qive consideration to conducting   research on We had
       functional impairment   and appropriat  interventions..
       hoped   at the OIG inves iqation would shed more light en€
       this area.               its usefulness was 11m!
                                                        ted. of
                   However, because of its bread definition
                              ,
       functicnal impairments
-:.                                                                                                 ~~~                      =- ,/€' =

                                                                                                                    Washington, D. C. 20201




                                                           FE 20 

                                                                        1992



                                                                                                          DDN
TO:	                     Richard P. Kussero
                         Inspector General
                                                                                                          OGCIIG
FROM:                    Assistant Secretary for
                                                                                                          EXSE
                         Planning and Evaluation
                                                                    l1D aU" e .
                          Comment" on o:tG Draft Reports: .Fun
SUBEJCT:
                          of AFDC Clients"   and "Fuctional Impair!ents of AFDC
                                                                        02.-                00401
                          Clients: Case studies"



                                      the opportunitydealing
                                                       to review the draft
                                                                            report for
We appreciat
 your study of                        bow states are study provides
                                                             with functionally impaired
                                                                      the Departent and
 AFDC clients under                                JOBS. This
                                                           special
 states with insights about what types of impairments are found in
                                                       akq
 the AFDC popUlation and examples of local programs 

                                                                               popula'tio                    This informtion

 efforts to identify and help this
                                                         Departent continues                               to help states to€
 will be useful as the                                                                   comments
                                                                      Followint; are our €                                        on the

  fine-tune their JOBS programs.
  draft.                                                                                                                  l8 are defined
                                                               18
  We are            concerned                  about how functional lmpaiDIents
  in these report                               While functional impairments are the keystone
                                                                                          The
  of  both reports,   the definition is somewhat unclear.
  distinction bet een having an
                                impairment (such as lowneeds
                                                        back 'to
                                                              pain)
  and beinq.functionally i1Ipaired :by low Dack pain
      sb.     The fuctional impairments of most concern
            1;E:ned.                                                                                                            here are
                                            in the JOBS proqram and
      those that affect ability to succeed
                                       ):etween chonic versus acut
. become employed.    The difference     The studies, ' we believe,
                    needs to be  raised.
  i1Ipairments also
                     chronic i1pairments but this is not clearly
      are. referrinq to
       tated anywhere.
                                                                                                                                        the
      Learning disabilities are  a I1ajif
                                        or iInpairment according to
                                           these impairments   had been
      reports.   However, we  wonder
                                   s school years   and,  if they were,
      diagnosed during these women education? Had these impairments
      what was the role of specialDid these women receive -. special
      been identified before?                                 they were
                                                         clients themselves
            cation? Did                            the                                               know that
       learning disabled?

                              also predominate, but what they that  thesof
                                                               consist
      Emotional i1Ipairments                           . here
       is unclear.
      imp irment   are
                      The point
                        not
                                   needs
                              routine
                                          to  be
                                       emotional
                                                 made
                                                  concerns, but serious
                                                         functioning. In
       emotional impairment  which could interfere with                                                                      impairments
                                                                     interpret the emotional
       the current text one might                                                      tha                                rt of everyday
       reported to be relatively minor oR
                                          .. o                                          r.. 11ar-a    7P
                                                                                               o:;.J r.....
        1. e.                                                                              ."'''c
                                                                                                            :2""  1..1'
                                                                                 \.I        C:\l              .JI:J..
                                                                                       11-' A I     ':":1\.
     ~~~                       _&.- -- ---€                                                                   , (€
r:




                       2 -     Richard
                                                     P.     XUsserCW
       Page




       Several tiJes, references are )lds   t: SSI to
                                         recipient
                                                                the
                                                                                   AF                                         enroll in
                                                                                                                   eligibility wherein

       states  encourage iJpairedReade ar apt to wonder whY most of
       disabled porti of 551. benefits. It ahcud be pointed thatout
       these clients don't get 551
                               clients probably have disabiliti
       that most of these AFDC t.'lem to qualify fer                                                                 SS:I.


        a,e not. severe                          enough for
                                                     5tates to develop
        The recommendationsin-depth
                                call
                                     for,  (1)  the   ) for ACF to assist€
        mechanism to   provide         assessment                   serve
                                             identifY, refer, andon the
        states in effective (3) for ACF to conduct reearch There
                               practices  to
           impaired clients, and
           nature and extent of
                                                 AFDC populati
                                  mental/emotional aasessmet
                                                                    impairments

                                                                stndard
                                                                                                in
                                                                                                                                     int:rnts
           are ma    physical and
           that can be          Does OIG       used.
                                         have any preferred  or
                                               first two recommenda.tio
           measures to  recommend: The        States to includ physical,              st.udy.



           could be strengtened     by calling
                                and learning    for
                                              disabilities in their  assessments
           mentall emotional, cnsiO  'roo often, persons  with disabilities  are
           and ide.Tltificati
                          include only those with physical         disabilities.
           thought to                                       any overall guidance€                    is      ere
                                                      ird       recommendation,
           Regardinq the €
                                     , such as coordination with research units€
                at ACF should follow
                                  is disability?€
              whose primary

                                                    that ACF      together with
                                                                           ents                                                t:
              OIG should include a reco_endati treatment of AFDC recip€ Such
              ADAM to                  or mental hea1.th
                                         coordinate diagnosis


              with alcohol, drg abuseparticnar1.y productive
                                                                                                                             iJirts.
                                                                                                                                  regard to
                                                                                                                                    in
              coordination could be
                               have been major advancemts
                                                          in                                                                        the effective
               depression. There           recent years. Early identificati
                                                                   depressio
                                     participants
               treatment of depression
               and treatment of JOBS
                                       in          with t..,atable
                                                              ability to benefit
                                             imact on their
               likely to have a significant self-Sufficient.
                from JOBS services and become
                                                                                                                                of JOB5 program
                                                                                  supportin'1 an evaluation
                                                                                                        collected                     for this
                ASPE and ACF are jointlY baseline data to be
                strategies. be measurements
                              Among the
                                                     furer                                       of
                                                                                                          depressi             amon'1 potential
                                                                                                                              informti about
                study will    This data will proide
                participants.         impairments in this populati€
                the extent of emotional                                                                                                    report,
                 Finally, we have                                         few specific questions about the
                                                                                  Clients: Case studies
                 "Functional ImpairJents of AFDC
                                                                                                          teeth" on page 5 need to be€
                              The references to "Bad or no                                                         impairments.
                              further described as to why they are €
                                                                            " as indicati€
                                                          "too much perfmne
                              The reference on page 7 to
                              of a substance abuse problem needs to be explained. €
. , --   ..: . '
               . ,,;"'   .. -




                                 'Rsser
             Page 3 - Richard P. €

                                                   eds an explana€      as to how€
                   The description on  paqe 12  ne
                                                             program are incorpo-
                                             Progam.
                   the AFDC client population and the JOBSprevalence figues of V
                   rated into the HOST/HR
                                        tmpairments  are 9i
                                                            en fer this program,
                   broad cateqories of                      AFC clieni:s.
                   but it is unclear whether they are all €
                                                                   report, please
              Ix you have any specixic questions about this
              contact Jane Baird, 245-2409.




                                       Martin H. Gerr
